 OFFICE OF INSPECTOR GENERAL




           EVALUATION OF THE
U.S. INTERNATIONAL TRADE COMMISSION'S
  DISCRETIONARY DOCUMENT AND MAIL
         DISTRIBUTION PROGRAM

             Audit Report
             OIG-AR-OI-04




                                 May 26,2004
      INSPECfOR GENERAL




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, D.C. 20436


                                                            IG-BB-008
May 26,2004

MEMORANDUM

TO:     THE COMMISSION

 We hereby submit Audit Report No. OIG-AR-01-04, Evaluation of the U.S. International
 Trade Commission's Discretionary Document and Mail Distribution Program. We
·perfonned this audit to determine if the Commission effectively processed discretionary
 mail and made publicly available information accessible on its Web site.

We found the Commission processed outgoing and returned mail as intended and tracked
expended costs. Action should be taken, however, to enhance access to and delivery of
discretionary documents. We made six recommendations to (1) increase the use of
information technology at the Commission, (2) encourage customers to obtain publicly
available information through the Web or a CD-ROM, and (3) enhance information
technology procedures. The Commission concurred with our findings and
recommendations.

We appreciate the courtesies and cooperation provided to our au9itors during this audit.


                                                            /r~/~jL-_
                                                            Kenneth F. Clarke
                                                            Inspector General


CC: Cynthia Johnson
    Office Directors
    Cotton & Company LLP
Evaluation of the U.S. International Trade Commission's                      OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

TABLE OF CONTENTS

I.     SUMMARY OF RESULTS                                                                       1
II.    BACKGROUND                                                                               2
III.   OBJECTIVE                                                                                3
IV.    METHODOLOGY AND SCOPE                                                                    3
v.     RESULTS                                                                                  5
       A.     Effective Handling of Outgoing and Returned Mail.                                 5

       B.     Further Use of Information Technology Could Reduce Processing and
              Delivery Costs and Enhance Service to the Public                                   6
              Recommendation 1                                                                  11
              Management Response                                                               11
              OIG Comment                                                                       11
              Recommendation 2                                                                  11
              Management Response                                                               11
              OIG Comment                                                                       11
              Recommendation 3                                                                  12
              Management Response                                                               12
              OIG Comment                                                                       12

       C.     Need to Encourage Customer Use of Electronic Media                                12
              Recommendation 4                                                                  13
              Management Response                                                               13
              OIG Comment                                                                       14

       D.     Need to Enhance IT Procedures To Streamline Document Processing and
              Ensure Internet Searches Retrieve Commission Products             14
              Recommendation 5                                                  16
              Management Response                                               16
              OIG Comment                                                       16
              Recommendation 6                                                  16
              Management Response                                               16
              OIG Comment                                                       16


APPENDIX A - MANAGEMENT RESPONSE                                                                17




                                                          Office ofInspector General
                                                          u.s. International Trade Commission
Evaluation of the U.S. International Trade Commission's                                         OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

I.       SUMMARY OF RESULTS

The Commission processed outgoing and returned mail as intended and tracked expended
costs. However, the Commission can enhance access to and delivery of its discretionary'
documents, as well as improve the internal efficiency and effectiveness of document and
mail distribution, by completing formal plans and policies to ensure information
technology tools are implemented and used. First, given that the Commission established
a Web team and hired a Webmaster approximately 1 month before the start of this audit,
it is important to have a completed and approved plan of action with milestones to
support and account for the their efforts. Second, although the Commission encouraged
use of electronic documents in place of paper documents for distribution, official
guidance on the format (i.e., paper or CD-ROM 2 ) was needed. Third, while the
Commission's annual Budget Justifications discussed its desire to automate the
investigation questionnaire (IQ) process, the Commission did not have a system
development life cycle' (SDLC) to ensure the IQ System's development or
implementation.

Additionally, the Commission lacked a sufficient process to encourage customers to
request products in less expensive formats and track customers' preferred product
formats. Also, the Commission did not encourage its program offices to submit
electronic formatted documents to the Office of Publishing or use existing technology to
make products easier for customers to find on the Internet.

We made six recommendations to enhance access to and delivery of the Commission's
discretionary documents. The Commission agreed with the findings and
recommendations, and management's complete response is presented as Appendix A of
this report.




1 For purposes of this report, reports and publications that are available to the public will be referred to as
discretionary documents.

2 Compact Disc-Read Only Memory (CD-ROM) is a device that can hold a considerable volume of
electronic information.

3SDLC is the process of developing information systems through investigation, analysis, design,
implementation and maintenance. It is comprised of multiple steps:
    • The software concept - identifies and defines a need for the new system
    • A requirements analysis - analyzes the information needs of the end users
    • The architectural design - creates a blueprint for the design with the necessary specifications for
       the hardware, software, people and data resources
    • Coding and debugging - creates and programs the final system
    • System testing - evaluates the system's actual functionality in relation to expected or intended
       functionality.


                                                                             Office ofInspector General
                                                                             u.s. International Trade Commission
                                                       1
Evaluation of the U.S. International Trade Commission's                          OIG-AR-OI-04
Discretionary Document and Mail Distribution Program



II.    BACKGROUND

The Commission is an independent, nonpartisan, quasi-judicial federal agency that
provides trade expertise to both the legislative and executive branches of government,
determines the impact of imports on U.S. industries, and directs actions against certain
unfair trade practices, such as patent, trademark, and copyright infringement. Its mission
is to: (1) administer U.S. trade remedy laws within its mandate in a fair and objective
manner; (2) provide the President, the United States Trade Representative (USTR), and
Congress with independent, quality analysis, information, and support on matters of
tariffs and international trade and competitiveness; and (3) maintain the Harmonized
Tariff Schedule of the United States. In so doing, the Commission contributes to the
development and implementation of sound and informed U.S. trade policy.

The Commission's work involves receipt, production, dissemination, and storage of large
quantities of information. A great deal of information is generated during the course of
the Commission's investigations and adjudication of cases. A considerable amount of
trade-related information also is generated by the Commission's extensive research
program. Much of this information is available to the public and provided on the
Commission's Web site www.usitc.gov.

Today responsibility for every aspect of the discretionary document and mail distribution
program rests either with the Director of Administration or the Chief Information Officer;
both positions are held by the same person. Historically, U.S. International Trade
Commission Directive 3350.1 delegated to the Director, Office of Administration (OA),
overall responsibility for mail standards and procedures. Directive 1005.3 assigned the
Office of the Secretary-now under the Office of the Chief Information Officer
(OCIO)-responsibility for disseminating publications and other documents, and
maintaining a mailing list of customers who requested receiving all future reports or
publications by a specific topic as well as Congress and libraries. Directive 3201.0
provided publishing guidelines and assigned the Office of Publishing-also under
OCIO-responsibility for supporting program offices and producing publications in
paper format and electronic versions of certain reports and for providing the files to the
Office of Information Services-again under OCIQ-for posting on the Web. Publishing
also produces discretionary documents in CD-ROM format for mailing.

After the Office of the Secretary approves a request for printing and mailing (ITC Form
120: Printing Work Request), it is forwarded to Publishing for action. The Office of
Facilities Management-under OA-works with the U.S. Postal Service (USPS) to
identify the most economical mode and class of mailing and oversees the mailroom
contract services. This contractor follows the guidance provided in Directive 3350.1.
Additionally, the Office of Facilities Management tracks mail costs for USPS and
overnight delivery. In FY 2003, the Commission obligated: $62,088 for commercial
overnight mail service, primarily used by the Office of Investigations for delivery of



                                                             Office ofInspector General
                                                             u.s. International Trade Commission
                                            2
Evaluation of the U.S. International Trade Commission's                        OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

questionnaires, and $73,202 for USPS, primarily used by the Offices of Publishing and
the Secretary for delivering discretionary and other investigative documents.

In 2001, the President initiated several government reform efforts, collectively known as
the President's Management Agenda (PMA), to make the federal government more
results-oriented, efficient and citizen-centered. One element of the PMA was Expanding
Electronic Government, or "E-Gov." This effort was intended to make better use of
information technology (IT) investments to eliminate wasteful federal spending, reduce
government's paperwork burden on citizens and businesses, and improve government
response time to citizens from weeks down to minutes. A key goal was for citizens to be
able to access government services and information when using the Internet. The E-
Government Act of2002 (Public Law 107-347) further enhanced the management and
promotion of electronic government services and processes by establishing a broad
framework of measures that require using Internet-based information technology to
enhance citizen access to government information and services.

The Office of Management and Budget's (OMB) Implementation Guidance for the E-
Government Act of2002-Memorandum M-03-18 dated August 1, 2003-provided
guidance on specific actions for agencies to take to improve the IT programs'
effectiveness and efficiency in delivering services to citizens.


III.   OBJECTIVE
This independent evaluation was conducted to assess whether the Commission:

       1.     Made publicly available, or discretionary, information accessible on its
              Web site.

       2.     Took action to promote Web site retrieval of such information vs. paper
              processing.

       3.     Met its customer needs by ensuring that discretionary information was
              well organized and accessible.

       4.     Contracted mail service operated as intended.


IV.    METHODOLOGY AND SCOPE

We engaged Cotton & Company LLP to assist in conducting this evaluation. Fieldwork
took place between October 2003 and February 2004. We evaluated the Commission's
policies, procedures, and practices supporting distribution of publicly available
information and investigation questionnaires. Our evaluation included the Office of the
Secretary's customer mailing list procedures and practices for distribution of the
discretionary reports. The audit also covered the procedures and practices used by the:

                                                              Office ofInspector General
                                                              u.s. International Trade Commission
                                            3
Evaluation of the U.S. International Trade Commission's                           OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

Office of Publishing to make public documents available in paper and electronic formats;
and Office of Facilities Management to manage the mail costs and the mail program
including oversight of the mailroom contractor's mail handling processes for outgoing
and returned mail.

We evaluated the Office of Chief Information Officer's (OCIO) policies, procedures, and
practices used to promote collection and dissemination of information electronically both
internally and externally. We evaluated OCIO policies, procedures, and practices to:

       •       Develop, implement, and maintain the Commission's Web site.
       •       Work with other governmental agencies in linking and promoting the
               Commission's Web site.
       •       Use Web site search engines to promote efficient use of the Web site and
               increase customer satisfaction.

Finally, we evaluated the Office of Investigations' procedures and practices for mailing
investigation questionnaires using overnight and priority mail services as well as
potential future plans to automate the questionnaires for electronic transmission in lieu of
traditional mail services.

We conducted this audit in accordance with Government Auditing Standards pertaining
to Performance Audits, 2003 Revision, as amended, promulgated by the Comptroller
General of the United States.




                                                              Office ofInspector General
                                                              U.s. International Trade Commission
                                             4
Evaluation of the U.S. International Trade Commission's                        OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

v.     RESULTS

       A.      Effective Handling of Outgoing and Returned Mail

The Office of Facilities Management, within the Office of Administration, effectively
provided oversight of the mail room contractor and gathered essential information
concerning the volume, postage cost and policies on the mail standards and procedures.
Furthermore, the contracted mail service activities met the contract's deliverables and
statement of work.

The contractor selected the most economical means for processing out-going mail while
originating offices determined and prescribed the use of specialty mail services such as
overnight delivery and certified mail. Based on interviews with the Office of
Investigations-the principal user of overnight mail-the office justified overnight mail
service due to time-sensitive material and a business need to ensure receipt of material.

When an article was returned, the contractor who managed the mail room forwarded the
article back to the originating office. The Commission's Correspondence Manual stated
that the return address, along with the originator's office symbol, must appear on all
envelopes and address labels. Therefore, for the documents included in this review, the
contractor routinely forwarded all returned discretionary documents to one individual in
the Office of the Secretary and returned investigation questionnaires to one individual in
the Office of Investigations. Documents returned to the Office of the Secretary resulted
in removal from their automated mailing list system. For returned investigation
questionnaires, the one person tasked with handling them attempted either to find the
correct address, make the correction, and re-send the item or to give it to the originating
Investigator.

Since the Commission or the mail room contractor did not maintain a record of returned
mail, the volume, frequency, or disposition of returned mail could not be quantified. The
customer's correct mailing address is critical to the Commission in meeting its mandatory
investigation deadline involving questionnaires requiring a response from the customers
within 14 days of mailing. Furthermore, the Commission incurs an additional cost of $8
from the overnight delivery company for their attempt to correct the address and forward
an investigation questionnaire. During the month of June 2003, the overnight carrier
charged the Commission $1,775.41 for delivering 351 packages for an average cost of
$5.06. The Commission incurred an additional charge of $64.00 for 8 incorrectly
addressed packages.




                                                              Office ofInspector General
                                                              u.s. International Trade Commission
                                             5
Evaluation of the U.S. International Trade Commission's                                 OIG-AR-OI-04
Discretionary Document and Mail Distribution Program


        B.       Further Use of Information Technology Could Reduce
                 Processing and Delivery Costs and Enhance Service to the
                 Public

The Commission's successful efforts to enhance access to and delivery of its
discretionary documents, as well as to improve internal efficiency and effectiveness of
document and mail distribution, included:

    •   Posting the Harmonized Tariff Schedule of the United States Annotated (HTSA)
        on its Web site with a link to the Government Printing Office for obtaining HTS
        information in paper and CD-ROM.
    •   Encouraging the Commission's managers to offer documents to the public in the
        less costly CD-ROM format rather than paper.
    •   Establishing a Web team, including hiring a Webmaster, to improve the internal
        and external Web site in order to enhance access and provide better service to the
        Commission's customers and personnel.

Section 5122 of the Clinger Cohen Act 4 requires agencies to design and implement a
process for maximizing the value and assessing and managing the risks of the IT
acquisitions. Paragraph (6) of Section 5122 requires developing the means for providing
senior management personnel timely information regarding the progress of an investment
in an information system, including a system of milestones for measuring progress, on an
independently verifiable basis, in terms of cost, capability of the system to meet specified
requirements, timeliness, and quality.

By completing formal plans and policies to ensure IT tools are implemented and used, the
Commission would be better prepared to meet future customer needs and reduce costs
associated with old ways of delivering discretionary documents and mail. Areas
requiring additional action include: approving the Web team's plan and completing
guidance to maintain a quality Web site; completing the Commission's policy on
providing discretionary documents in CD-ROM and paper formats; and assessing the cost
and benefit of automating the investigation questionnaire.

Planning the Web Site

The Commission, having established a Web team and hired a Webmaster, had not
completed and approved a plan of action with milestones to support and account for their
efforts. In 2003, the CIa established a Web team and hired a Webmaster to improve the
internal and external Web site-www.usitc.gov-inorderto enhance access and provide
better service to the Commission's customers and personnel. Based on interviews with


4 Clinger-Cohen Act of 1996 (formerly called Information Technology Management Reform Act),
Division E, National Defense Authorization Act for FY 1996 (Public Law 104-106, February 10, 1996)
took effect August 8, 1996.


                                                                     Office ofInspector General
                                                                     u.s. International Trade Commission
                                                  6
Evaluation of the U.S. International Trade Commission's                                     OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

the Webmaster, briefings provided to senior officials by the Webmaster on current and
planned actions, and analysis of the Web site, the team's projected efforts likely will
better serve the Commission's customers. However, a completed and approved plan of
action with milestones would ensure that both the Commission and the team have a
shared understanding of what is to be accomplished and when.

The Commission's WEBTrend5 data revealed that the Web site's users had experienced
difficulty locating documents and maneuvering. During the audit, the Web team
addressed these and other concerns by drafting a plan to improve the Web site and
completing a survey of internal managers to obtain user needs and suggestions. Also,
they added on the Web site an alert that the site was being redesigned and provided an
area where customers could submit suggestions. Further, the Webmaster stated that the
team had begun reviewing WEB Trend data. Finally, as we completed the audit, the Web
team had designed a preliminary mock-up of the opening Web page, now displaying the
Commission's data by topic. This new display should provide quicker, easier and more
intuitive navigation for customers.

The National Institute of Standards and Technology has developed standards for
implementing and maintaining Web site operations. Special Publication 800-44
Guidelines for Securing Public Web Servers is designed to assist organizations in
installing, configuring, and maintaining secure public Web sites. This document provides
a wide range of guidance and requirements for developing formal procedures and
practices to ensure data integrity and reliability of information posted to Web sites and
for maintaining the site security.

While the above actions demonstrated the Commission's commitment towards using
electronic means to better serve its customers, an approved plan of action with milestones
was needed to ensure continued success. Realistic milestones are particularly important
because the Web team was also responsible for maintaining the current Web site. Also,
approved guidance should be developed that assigns responsibilities and procedures to
ensure the Web site is maintained.

Offering Electronic Documents

Although the Commission had encouraged use of electronic documents in place of paper
documents, it had not issued official guidance on the format (i.e., paper or CD-ROM) to
be distributed for final reports and publications. From October 2002 through February
2004, the Commission saved more than $47,000 6 because the Director of Publishing
decided to promote distribution of discretionary documents in CD-ROM. For Section



5   WEBTrend is an automated tool which reports Web visitor behavior.

6 During this time period, the Office of Publishing prepared 49,219 reports and publications for mailing-
4,406 in CD-ROM and the remaining 44,813 in paper.


                                                                        Office ofInspector General
                                                                        u.s. International Trade Commission
                                                    7
Evaluation of the U.S. International Trade Commission's                                    OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

332 investigation reports", Publishing released 77 percent in CD-ROM with no customer
complaints. Publishing worked with originating offices to determine which recipients
should receive CD-RaMs-especially for high visibility subjects such as steel. Paper
was generally restricted to the requestor of the report, Congress, libraries and internal
offices in the Commission. By issuing official guidance, Publishing can codify a good
initiative and ensure that Commission employees have a clear understanding of what is
expected of them. This guidance should not prohibit the public from obtaining requested
paper copies,

The cost to produce and mail a CD-ROM is substantially less than a paper document. As
shown in Table 1, the Commission's cost to prepare and mail an average 150-page
document in paper format is five times greater than a CD-ROM.

                        TABLE 1. PREPARATION AND MAILING COST
                          OF AN AVERAGE ISO-PAGE DOCUMENT

                                                                                 Posting
                                      Paper                                    Document to
            Cost Category            Document             CD-ROM                Web Site
          Labor                           $6.67                $1.85                   $1.85
          Paper                           $1.80                $0.00                   $0.00
          Mailing (USPS)                  $4.75                $0.60                   $0.00
                Total                    $13.22                $2.45                   $1.85


The Commission incurs an initial report preparation cost no matter the format; however,
the costs shown in Table I are the estimated additional labor and material costs
associated with the specific media. Although not specifically required by the
Commission's Directives, the Office of External Relations asks that all publicly available
documents be ready in all three formats prior to notifying customers of their availability.

Section 3506(h) of Title 44, United States Code, directed agencies to establish goals for
improving the efficiency and effectiveness of agency operations and, as appropriate, the
delivery of services to the public through the effective use of information technology.

U.S. International Trade Commission Directive 3201.0 provided guidelines for
composing and publishing publications and assigned Publishing responsibility for
producing electronic versions of reports and for providing the files to the Office of
Information Services for posting on the Web. Publishing also was responsible for
producing and maintaining written guidance on the general policy and procedures for
documents prepared for final formatting and for printing publications in both paper and

7 Under section 332 of the Tariff Act of 1930 (19 U.S.C. § 1332), the Commission conducts investigations
on matters pertaining to the customs laws of the United States, foreign competition with domestic
industries, and international trade relations.


                                                                       Office ofInspector General
                                                                       u.s. International Trade Commission
                                                   8
Evaluation of the U.S. International Trade Commission's                                   OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

electronic formats. However, Publishing had not issued official guidance on the format
(i.e., paper or CD-ROM) to be distributed for final reports and publications.

Assessing the Investigation Questionnaire Process

While the Commission's annual Budget Justifications discussed its desire to automate the
investigation questionnaire (IQ) process, the Commission did not have a strategy or plan
for its automation. Without determining that an IQ System was needed or what it might
entail, each year beginning in FY 2002 the Commission included the cost to design and
develop an automated IQ System in its Budget Justifications. However, for more than 3
years, the Commission took no further action to develop the IQ system, instead applying
funds to complete previously initiated IT projects. Absent a strategy or plan for how to
implement the IQ System in light of other IT project priorities, the Commission could not
ensure that the promised IQ System will be developed.

Import injury investigations require collection via questionnaires and analysis of large
amounts of corporate financial and operating data. Currently the Commission meets
these demands through labor-intensive processes that design, mail out and receive
questionnaires back; then input, correct, tabulate, review, and analyze the data and
narrative information in customized importer and producer questionnaires. Accuracy and
speed of this activity are critical to the quality and credibility of the Commission's work.

In October 2000, the Commission advised OMB of its plan to automate the investigation
questionnaires as one of the Commission's priority Government Paperwork Elimination
Act projects''. The Commission represented in its Budget that the IQ System could speed
questionnaire handling, data manipulation, and report-generating activities. Investigators
and economists would then have additional time to prepare the staff investigative report
and to engage fuller analysis of issues raised by parties and Commissioners. It would
also provide for electronic completion and filing of questionnaires by companies
involved in Commission cases.

According to the FY 2003 and FY 2004 Budget Justifications, the Commission stated:
"The IQ system would provide an option for electronic completion and filing of
questionnaires by companies involved in Commission cases, thus potentially reducing the
estimated $11 million per year in information maintenance and reporting burden on the
public ..." Costs listed and the Commission's comments provided in the Budget
Justifications are presented in Table 2.




8 In response to the Government Paperwork Elimination Act, the Commission provided OMB with a
description of the Commission's and public's responsibilities and work requirements used to process the
investigative questionnaires in paper format.


                                                                        Office ofInspector General
                                                                        u.s. International Trade Commission
                                                    9
Evaluation of the U.S. International Trade Commission's                                  OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

           TABLE 2. BUDGET JUSTIFICATIONS FOR THE IQ SYSTEM

                    FY       AMOUNT                   COMMENT
                  2002       $500,000   To develop the IQ System
                  2003       $800,000   Defer further development of the IQ
                                        System until FY 2003 due to a higher
                                        priority IT project
                  2004       $1 million To develop the IQ System
                  2005       $100,000   For IQ System requirements
                             per year   development and analysis


While the Commission's annual Budget Justifications discussed its desire to automate the
investigation questionnaire process, the Commission did not follow the SDLC process to
guide management in acquiring, developing and maintaining the IQ System.
Section 5122 of the Clinger Cohen Act requires agencies to develop the means for
selecting IT investments based on criteria to be applied in considering whether to
undertake a particular investment in information systems. The developed means should
include criteria related to the quantitatively expressed projected net, risk-adjusted return
on investment and specific quantitative and qualitative criteria for comparing and
prioritizing alternative information systems investment projects. Further, agencies are
required to identify for a proposed investment the quantifiable measurements for
determining the net benefits and risks of the investment.

According to the Director of the Office of Investigations, investigative questionnaires
were produced in Word Perfect and sent via FedEx to individuals to ensure timely receipt
and response. Respondents provided their email addresses and phone numbers so that
they could be asked follow-up questions. An investigator questioned whether automation
was feasible because each investigation is unique, and recipients of the questionnaire may
not have Internet access.

The CIO said the Commission likely will not evaluate whether to automate the
questionnaire in the next year because all available resources will be needed to handle the
Commission's expected increase in the sunset review" work load. For fiscal years 2004
and 2005, the Commission estimated conducting 21 and 46 sunset reviews, respectively
versus the actual number of reviews conducted in fiscal years 2001 through 2003 were 2,
5, and 1.




9 In a sunset review, the Commission evaluates whether material injury to a U.S. industry would likely
continue, or recur, if the antidumping/countervailing duty (AD/CVD) order is revoked. Such review must
be conducted on every AD/CVD order every 5 years.


                                                                      Office ofInspector General
                                                                      u.s. International Trade Commission
                                                  10
Evaluation of the U.S. International Trade Commission's                          OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

In light of doubts and delays concerning the IQ System as well as insufficient data
available on its potential cost or savings, the Commission should follow the SDLC
process to assess the project's viability. Accordingly, the assessment should include
Clinger Cohen requirements to compare the benefits and return on investment of
competing IT projects in order to properly set the IQ System's priority. A decision
should be made whether the IQ System will improve the program's effectiveness and
efficiency in conducting the investigations while reducing the paperwork and burden on
businesses required to complete the questionnaires.

Recommendation 1
The cIa should ensure the Web site team has: (a) an approved strategy and a detailed
project plan with projected completion dates for enhancing the Web site based on the
Commission's staff and customer input; and (b) procedures to maintain the Web site,
including monitoring customer usage and satisfaction with the Web site and making the
necessary adjustments to address user friendliness and user maneuverability through the
Web site.

Management Response
The cIa concurred with the recommendation. During the first 6 months of the Web
team's creation in mid 2003, the team used a comprehensive fact finding approach to
identify and outline the challenges facing lTC's Web. As a result of this effort, the team
has developed a project plan that addresses the major deficiencies of the ITC Web site
and adopts many "best practices" for Web site management. The project plan will be
submitted to the cIa for approval. Written procedures for maintaining the Web site will
be completed by the Web team and will address monitoring customer usage, satisfaction
and user friendliness. Completion Date: September 30, 2004

OIGComment
When accomplished, the above actions will satisfy this recommendation.

Recommendation 2
The Director of Publishing should issue official guidance on the format (i.e., paper or
CD-ROM) to be distributed for final reports and publications by type of customer (e.g.,
Congress, libraries, law firms).

Management Response
The Director of Publishing will prepare official guidance for the Chairman's approval,
through an Administrative Order, that establishes a policy on the format for distribution
of final reports and official publications to customers. Completion Date: August 30,
2004

OIGComment
When accomplished, the above actions will satisfy this recommendation.




                                                              Office ofInspector General
                                                              u.s. International Trade Commission
                                            11
Evaluation of the U.S. International Trade Commission's                            OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

Recommendation 3
The CIa should assess the IQ System's cost in terms of its benefit to the Commission and
the public, and determine its priority and schedule for development in lieu of other IT
projects. If the IQ System is approved, the CIa should develop an SDLC to minimize
potential future delays.

Management Response
The CIa concurred with the intent of the recommendation. The Office of the CIa will
ensure that the proposed IQ System project follows the SDLC discipline. Following the
SDLC process, the proposed IQ System project will have an updated needs assessment
and resource identification by which the Chairman will approve or disapprove further
commitment to this project. The decision to proceed with this project will come through
the SDLC process, not before. Completion Date: March 1, 2005

OIGComment
When accomplished, the above actions will satisfy this recommendation.


       c.      Need to Encourage Customer Use of Electronic Media

The Commission lacked a sufficient process to encourage customers to request products
in less expensive formats and to account for customers' preferred product formats. This
year, the Office of the Secretary's annual address verification letter asked customers to
include in their reply the report format-paper, CD-ROM, or Web site-they preferred.
However, customers were not advised that the electronic formats are delivered more
timely and at less cost to the government. Also, because the Commission did not account
for the customers' expressed preferences in a centralized mailing list, opportunities likely
were lost to provide the more timely and less costly electronic formats.

The annual verification letter contained the following footnote:

       The U.S. International Trade Commission (USITC) is interested in your
       voluntary comments (burden less than 10 minutes) to help assess the value and
       quality of our reports, and to assist in improving future products. Which format
       is most useful for you?

       ___CD-ROM                Hardcopy           USITC Internet site

The annual letter would be a more effective opportunity for encouraging electronic
reports if it informed customers that receiving paper reports takes 2-to-4 weeks as
compared with CD-ROMs that take 2-to-4 days, and Web site reports that may be
downloaded in a matter of minutes. The letter could be enhanced by requesting the email
address of each customer to notify them of the availability of recently released reports, as
well as maintain a current list of customers interested in Commission business. The



                                                                 Office ofInspector General
                                                                 u.s. International Trade Commission
                                              12
Evaluation of the U.S. International Trade Commission's                          OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

notification could contain an embedded link to direct the customer to the Commission's
Web site for easy downloading.

In the spirit ofE-Gov, agencies were directed to identify and establish a broad framework
of measures that require using Internet-based information technology to enhance citizen
access to government information and services and to improve the program's
effectiveness and efficiency in delivering services to citizens.

The Commission has seen a steady growth in the customers' preference for obtaining
information directly from the Commission's Web site or electronically. In FY 2003,
although the Commission mailed approximately 20,000 publications mostly in paper
format, it provided over 300,000 reports downloaded by customers visiting its Web site.

The Office of the Secretary had no formal plan or process to act on the customers'
desired format responses. The Office of the Secretary maintained an automated system
which recorded customer name, address, and requested report(s). However, this system
did not have the capability to record the desired format.

The Commission could save an estimated 80 percent or more of current costs if
customers would accept discretionary documents in electronic format. In FY 2003, had
the 20,000 publications that cost $264,400 to produce and mail as paper been prepared
and mailed instead on CD-ROMs, the estimated cost would have been $49,000. Had the
same documents been downloaded from the Web site, production and mail costs would
have been essentially eliminated.

Recommendation 4
The Secretary should enhance the report distribution procedures by consolidating its
mailing lists into one list and recording and tracking in its mailing lists the customers'
desired type of report and desired medium (i.e., paper, CD-ROM, and Web site).

Additionally, the annual verification letter should be revised to specifically request:

   •   The customer's email address for communicating and sending notices to the
       customer.
   •   The customer's report medium preference along with a short description of the
       delivery time for each type, including the immediate availability of the report and
       other information from the Commission's Web site.
   •   An explanation of how the customer would be alerted of the publication's
       availability.

Management Response
The Secretary concurred with the intent of the recommendation. The Office of the
Secretary will conduct a requirements analysis of a fully comprehensive approach to
maintaining a database of mailing list recipients. The requirements analysis process will
identify the need to comprehensively address all mailing list needs of the Office of the

                                                                Office ofInspector General
                                                                u.s. International Trade Commission
                                             13
Evaluation of the U.S. International Trade Commission's                           OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

Secretary. The decision on whether, how, and when to proceed will be made only after
this analysis and a cost benefit analysis have been completed.

The Office of the Secretary will update the annual verification letter to include request for
email addresses, preferred medium, and an explanation of Commission notification
procedures.

Completion Date: May 31, 2005

OIGComment
When accomplished, the above actions will satisfy this recommendation.


       D.      Need to Enhance IT Procedures To Streamline Document
               Processing and Ensure Internet Searches Retrieve Commission
               Products

Further opportunities exist to streamline document processing and better serve customers
searching for the Commission's products. Although Commission offices are not required
to provide documents in electronic fonnat to the Office of Publishing for publication,
most products arrive in Publishing in time-consuming paper format. Also, the
Commission can make better use of existing technology to make products easier for
customers to find on the Commission's Web site.

Creating Web Acceptable Documents

Commission offices were not required to provide documents in electronic format to the
Office of Publishing for publication, and approximately 70 percent of Publishing's
workload received from internal sources was in paper format. For example, although the
Office of Investigations had its own scanners, Investigations provided its reports to
Publishing entirely in paper for Publishing to scan the reports including exhibits and
attachments.

The Commission has an opportunity to reduce processing costs by encouraging offices to
scan the additional documents when feasible and, at a minimum, provide Publishing with
existing electronic documents along with instructions to scan and add the additional
documents. When a paper document was received, Publishing had to scan the document
in order to create a CD-ROM or prepare it for posting to the Web. Depending on the
document's size and complexity, Publishing spent approximately 1 hour scanning it and
reviewing the quality in electronic format, By comparison, Publishing could review an
electronic document in 5 to 10 minutes before it could be posted to the Web.

Commission Directive 3201.0 assigned responsibility to the Office of Publishing for
producing electronic versions of reports and providing the files to the Office of
Information Services-another OCIO office-for posting on the Web site. Office

                                                               Office ofInspector General
                                                               U.s. International Trade Commission
                                             14
Evaluation of the U.S. International Trade Commission's                                   OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

directors are responsible for ensuring that materials to be processed meet the established
preparation standards for the selected mode of production.

Posting Documents to the Web site

As discussed above (see page 5), the Commission established a Web team and hired a
Webmaster but had not completed and approved a plan of action with milestones to
support and account for their efforts. Absent written procedures for maintaining the Web
site, the Commission used inconsistent techniques in posting documents to the Web.

The Commission generally used META tags 10 when posting a document to the Web.
META tags assist several of the leading commercial Internet search engines using
"search robots" to locate and record documents based on the META tag content headers.
While properly optimized META tags greatly enhance the ability of the leading search
engines to locate a Web site, the Commission's META tags were applied inconsistently
and not always formatted properly. Consequently, Commission publications and reports
less readily were identified when using a public search engine such as Google. Our Web
search of "Anti-Dumping" using Google found no mention of the Commission in the first
100 sites listed. Our search of "steel investigations" listed the Commission's Web site
sixth.

Properly implemented META tags include placing descriptions and keywords in the
META tag title headers of Web site pages. The "title" and "description" META tags are
important to write effectively since several major search engines use them in their
indices. However, not all search engines use this tag-Altavista does, but Excite does
not, for example. Therefore, the Commission's challenge is to identify the public search
engines most likely to be used and apply the method they use to bring the Commission's
work to the forefront.

Although META tags are one technique to increase the visibility of the Commission's
Web site, other techniques are also suggested by the World Wide Web Consortium
(W3C). W3C's site at www.searchenginewatch.com provides suggestions for posting
documents to the Web site that can improve the search engine results. Also, the General
Service Administration's Office of Electronic Government provides assistance and
guidance to federal agencies in developing, maintaining, and enhancing their Web sites.
At www.estrategy.gov, within the Web Best Practices Guidelines, they provide a useful
guide titled Research-Based Web Design and Usability Guidelines to assist agencies in
increasing the public's use of the Web site.




10 A tag is a command inserted in a document that specifies how the document, or a portion of the
document, should be formatted. A META tag provides information such as who created the Web page,
how often it is updated, what the page is about, and which keywords represent the page's content. Many
search engines use this information when building their indices.


                                                                       Office ofInspector General
                                                                       U.s. International Trade Commission
                                                   15
Evaluation of the U.S. International Trade Commission's                         OIG-AR-OI-04
Discretionary Document and Mail Distribution Program

Recommendation 5
The Director, Office of Publishing should encourage program offices to provide
Publishing with available electronic formatted discretionary documents.

Management Response
The Director, Office of Publishing will meet with designees from the program office to
further encourage the submission of electronic content to Publishing for production. The
Director, Office of Publishing will also provide to the program offices documented
guidance on how, and in what formats, to submit electronic content to the production
staff.

Completion Date: September 30, 2004

OIGComment
When accomplished, the above actions will satisfy this recommendation.

Recommendation 6
The CIO should: (a) develop procedures for posting documents on the Web site in order
to improve the visibility of the Commission's Web site and documents by public search
engines, (b) assign responsibility for ensuring the procedures are followed, and (c)
develop Web site procedures to periodically assess the effectiveness and ease of
identifying the Commission's work when using public search engines.

Management Response
The CIO concurred with the intent of the recommendation. A strategic plan has been
developed and approved by the CIO to increase lTC's placement in relevant commercial
search engines. The plan will be implemented as part of the Web site redesign project.

All Web related activities reside in the Office of the CIO, who has the final responsibility
for ensuring that all IT policies and procedures are followed. Procedures for assessing
Commission search engine placement strategy will be implemented according to the
project plan approved by the CIO.

Completion Date: November 30,2004

OIGComment
When accomplished, the above actions will satisfy this recommendation.




                                                              Office ofInspector General
                                                              u.s. International Trade Commission
                                            16
                                                             APPENDIX A




   UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, D.C. 20436




  May 10,2004                                                   CIO-BB-003



  TO:          Inspector General

  FROM:        Stephen A. McLaughlin
               Chief Information Officer

 SUBJECT:      Draft Audit Report: Evaluation of the U.S. International Trade
               Commission's Discretionary Document and Mail Dlstributlon
               Program


  Thank you for the opportunity to review and comment on the subject draft report
  addressing the Commission's discretionary document and mail distribution
  program. As noted in the report, the Commission has made significant strides in
. improving the efficient and effective distribution of documents and publications
  through the use of information technology. We win continue to address this issue
  as an ongoing priority for the Commission.


 Recommendation 1

  The CIO should ensure the Web site team has: (alan approved strategy and a
  detailed project plan with projected completion dates for enhancing the Web site
  based on the Commission's staff and customer input; and (b) procedures to
  maintain the Web site, including monitoring customer usage and satisfaction with
" the Web site and making the necessary adjustments to address user friendliness
  and user maneuverability through the Web site.
Commission Response:

During the first 6 months of the Web team's creation in mid 2003, and in tandem
with maintaining current operations of the web site, the team used a
comprehensive fact finding approach to identify and outline the challenges facing
lTC's web presence. As a result of this effort, the team has developed a project
plan that addresses the major deficiencies of the ITC web site and adopts many
"best practices" for web site management. The project plan will be submitted to
the CIO for approval. Written procedures for maintaining the web site will be
completed by the Web team and will address monitoring customer usage,
satisfaction and user friendliness.

Completion Date: September 30, 2004


Recommendation 2

The Director of Publishing should issue official guidance on the format (i.e. paper
or CD-ROM) to be distributed for final reports and publications by type of
customer (e.g., Congress, libraries, law firms).

Commission Response:

The Director of Publishing will prepare official guidance for the Chairman's
approval, through an Administrative Order, that establishes a policy on the format
for distribution of final reports and official publications to customers.

Completion Date: August 30, 2004

Recommendation 3

The CIO should assess the 10 System's cost in terms of its benefits to the
Commission and the public, and determine its priority and schedule for
development in lieu of other IT projects. If the IQ System is approved the CIO
should develop an SOLC to minimize potential future delays.

Commission Response:

The Commission agrees with the intent of this recommendation, although not
with the approach. The Office of the Chief Information Officer will ensure that
the proposed IQ System project follows the Systems Development Life Cycle
(SDLC) discipline. Following the SOLC process, the proposed IQ System project
will have an updated needs assessment and resource identification by which the
Chairman will approve or disapprove of further commitment to this project. The
decision to proceed with this project will come through the SOLe process, not
before.

Completion Date: March 1, 2005


                                        2
Recommendation 4

The Secretary should enhance the report distribution procedure by consolidating
its mailing lists into one list and recording and tracking in its mailing lists the
customers' desired type of report and desired medium (Le. paper, CD-ROM, and
web site).

Additionally, the annual verification letter should be revised to specifically request:

 -   The customers' email address for communicating and sending notices to the
     customer

 -   The customer's report medium preference along with a short description of
     the delivery time for each type, including the immediate availability of the
     report and other information form the Commission' Web site.

 -   An explanation of how the customers would be alerted of the publications'
     availability.

Commission Response:

The Office of the Secretary will conduct a requirements analysis of a fully
comprehensive approach to maintaining a database of mailing list recipients.
The requirements analysis process will identify the need to comprehensively
address all mailing list needs of the Office of the Secretary. The decision on
whether, how, and when to proceed win be made only after this analysis and a
cost benefit analysis have been completed.

The Office of the Secretary will update the annual verification letter to include
request for email addresses, preferred medium, and an explanation of
Commission notification procedures.

Completion Date: May 31, 2005


Recommendation 5

The Director, Office of Publishing should encourage program officers to provide
Publishing with available electronic formatted discretionary documents.



Commission Response:

The Director, Office of Publishing will meet with designees from the program
office to further encourage the submission of electronic content to Publishing for


                                         3
production. The Director, Office of Publishing will also provide to the program
offices documented guidance on how, and in what formats, to submit electronic
content to the production staff.

Completion Date: September 30, 2004


Recommendation 6

The CIO should: (a) develop procedures on the Web site in order to improve the
visibility of the Commission' Web site and documents by public search engines,
(b) assign responsibility for ensuring the procedures are followed, and (c)
develop Web site procedures to periodically assess the effectiveness and ease
of identifying the Commission' work when using public search engines.

Commission Response:

As discussed above in our response to Recommendation 1, a strategic plan has
been developed and approved by the CIO to increase lTC's placement in
relevant commercial search engines. The plan will be implemented as part of the
Web site redesign project.

All Web related activities reside in the Office of the Chief Information Officer, who
has the final responsibility for ensuring that all IT policies and procedures are
followed. Procedures for assessing Commission search engine placement
strategy will be implemented according to the project plan approved by the CIO.

Completion Date: November 30, 2004


Approve:   V-                                    Disapprove:                      _


                    Tann;;Okun


cc: Office of Administration
    Office of Facilities




                                         4
